             DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                                                       Office of Inspector General



                                                                                                                           Washington, D.C. 20201


                                                                      JUlt8l0'1U 



TO:                    Marilyn Tavenner
                       Acting Administrator and Chief Operating Officer
                       Centers for Medicare & Medicaid Services


                                              /S/
FROM:                 Stuart Wright
                      Deputy Inspector General
                         for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicare Part B Services During Non-Part A Nursing
           Home Stays: Mental Health, OEI-06-06-00580


This memorandum report presents the results of a medical record review to determine the extent to
which Part B mental health services provided to Medicare beneficiaries during non-Part A I nursing
home2 stays in 2006 did not meet program requirements for coverage. We used resident
assessment data from the Minimum Data Set (MDS) to identify all nursing home stays nationwide
during 2006 and contracted with licensed psychiatrists and professional coders to conduct medical
record reviews for a sample of claims with Part B mental health services.
We found that 39 percent of Medicare Part B claims allowed for mental health services during
non-Part A nursing home stays in 2006 did not meet the program requirements for coverage.
Spe~ifically, services were medically unnecessary, undocumented or inadequately documented,
or miscoded. These errors resulted in an estimated $74 million in inappropriate Part B payments,
of the $211 million allowed in 2006. Claims for psychotherapy services comprised the majority
of these inappropriately paid claims .. Additionally, we foun~ that 71 percent of the sampled
mental health claims contained inaccurate diagnosis codes or lacked adequate documentation to
support the diagnosis code, although these codes did not directly affect reimbursement.




J Nursing home stays not paid by Medicare Part A (part A) constitute non-Part A stays. Part A covers posthospital skilled nursing facility (SNF)
care to eligible beneficiaries for up to 100 days in SNFs during which Part A will pay for mental health services as part of the nursing home's
daily rate. After the 100 days or if the beneficiary does not qualifY for a Part A stay, Medicare Part B (Part B) may provide coverage for mental
health services. Non-Part A stays occur in Medicare-certified SNFs, Medicaid-certified nursing facilities (NF), and dually certified SNFfNFs.
2 For purposes of this evaluation, the term "nursing home" is generic for any nursing home regardless of primary payer (e.g., Medicare,
Medicaid, or private resources).




OEl-06-06-00580            Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 2 – Marilyn Tavenner


BACKGROUND
In 2006, Medicare allowed $1.7 billion for Part B mental health services that diagnose, treat, or
manage psychiatric disorders. 3 This amount remained nearly constant at $1.6 billion in 2008. 4
Mental health services are assigned procedure codes from the Healthcare Common Procedure
Coding System (HCPCS). 5 (See Appendix A for a list of mental health HCPCS codes included
in this review.) In addition to HCPCS codes, providers must identify the appropriate diagnosis
for each submitted claim using the International Classification of Diseases 9th Revision
(ICD-9). 6 In general, diagnoses of mental health disorders fall under ICD-9 codes 290 to 319.
Types of Mental Health Services
Under Medicare Part B, beneficiaries can receive a variety of mental health services to diagnose,
treat, or manage mental health disorders. Medicare Part B allowed mental health services
include psychiatric diagnosis, psychotherapy, and psychiatric treatments other than
psychotherapy.
Psychiatric diagnosis. Diagnostic services used to identify mental health disorders allow providers
to plan for a patient’s treatment of care. Psychiatric diagnostic services may include psychological
and neuropsychological testing. During psychological testing, providers assess the emotionality,
intellectual abilities, personality, or psychopathology of the patient. Additionally, providers may
perform neuropsychological testing to assess the presence of aphasias, 7 developmental disorders,
or other neuropsychological disorders.
Psychotherapy. Subsequent to identifying mental health disorders, treatments of care may include
psychotherapy, a therapeutic procedure covered by Medicare, involving therapeutic communication
between the provider of service and the patient. Providers attempt to alleviate emotional
disturbances in the patient’s life and relationships by identifying and resolving problems needed to
achieve optimal functioning and reversing or changing maladaptive behavior patterns.
Psychiatric treatments other than psychotherapy. Other treatments covered by Part B include
biofeedback training, family consultations, pharmacologic management, electroconvulsive therapy,



3
 This total includes all claims, including those for beneficiaries residing in or out of nursing homes, with psychiatric codes (Current Procedural
Terminology (CPT) codes 90801–90899) in addition to claims for evaluation, management, and central nervous system tests that are supported
by a mental disorder diagnosis. The estimate is based on Office of Inspector General (OIG) analysis of a 1-percent sample of the 2006 Medicare
National Claims History.
4
    Ibid. The figure is based on OIG analysis of the 2008 Medicare National Claims History (NCH).
5
  Centers for Medicare & Medicaid Services (CMS), Medicare Claims Processing Manual, Pub. No. 100-04, ch. 7, § 20. All CMS manuals
referenced in this report can be accessed at http://www.cms.gov/Manuals/IOM/list.asp?intNumPerPage=all&submit=Go.
6
  In addition to the ICD-9, CMS and its contractors use the American Psychiatric Association’s Diagnostic and Statistical Manual of Mental
Disorders (DSM), which covers all mental health disorders for both children and adults. The DSM lists known causes of a disorder, gender
statistics, age at onset, and prognosis, as well as research concerning the optimal treatment approaches. Together, the ICD-9 and the DSM
provide the diagnostic codes used for mental health conditions.
7
    Aphasias involve disorders of expressive and receptive speech and language function.




OEI-06-06-00580             Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 3 – Marilyn Tavenner


environmental intervention, hypnotherapy, psychoanalysis, and other services not directly related to
psychotherapy.
During non-Part A nursing home stays, Medicare generally pays providers 80 percent of the
allowed amount for Part B services. However, for mental health services provided in outpatient
settings, Medicare first limits its incurred expenses to 62.5 percent of the allowed amount, and then
pays 80 percent of the reduced amount. As a result, Medicare may pay only 50 percent for mental
health services. This payment policy is called the “outpatient mental health treatment limitation.”8
Mental Health Coverage Guidance
In 2003, CMS issued guidance to its payment contractors in the form of a program memorandum
specifically focusing on Part B mental health services. The program memorandum summarized a
number of existing guidelines for coverage as follows: 9
             (1) “Section 1862(a)(1)(A) of the Social Security Act states that all Medicare Part B services, including
             mental health services, must be ‘reasonable and necessary for the diagnosis or treatment of an illness or injury
             or to improve the functioning of a malformed body member.’”
             (2) “For every service billed, providers must indicate the specific sign, symptom, or patient complaint
             necessitating the service.”
             (3) “CPT and ICD-9-CM codes reported on health insurance claim form should be supported by
             documentation in the medical record.”
             (4) “Providers should follow the documentation guidance for psychiatric diagnostic or evaluative interview
             procedures and psychiatric therapeutic procedures (CPT codes 90801 – 98002, 90804 – 90899 under the
             Psychiatric Section)  as described in the Physicians’ Current Procedural Terminology .”

CMS instructed its payment contractors to include the memorandum in bulletins to providers and to
post it on the contractors’ Web sites.
Mandate for Office of Inspector General To Monitor Part B Payments
With the repeal of the Balanced Budget Act of 1997’s (BBA) 10 consolidated billing provisions
for non-Part A stays, 11 section 313(d) of the Medicare, Medicaid, and SCHIP Benefits
Improvement and Protection Act of 2000 (BIPA) 12 directed OIG to conduct monitoring of
Medicare Part B payments during non-Part A stays to ensure that there are no excessive services
provided. 13




8
 Certain mental health services are exempt from the outpatient mental health treatment limitation (e.g., diagnostic services, such as
psychological testing). See 42 CFR § 410.155.
9
    CMS, Program Memorandum Change Request 2520, Transmittal AB-03-037, March 28, 2003.
10
     P.L. 105-33.
11
   Section 4432 of the BBA established a prospective payment system for Part A stays and required nursing homes to arrange for and consolidate
into a single Medicare bill the Part B services that a resident needs during his or her nursing home stay.
12
     P.L. 106-554.
13
  Section 313 of the BIPA maintained consolidated billing for Part A stays and therapy services (regardless of Part A coverage), but repealed
consolidated billing requirements for non-Part A stays. Therefore, claims for beneficiaries during non-Part A stays continue to be individually
submitted by suppliers and providers, except for therapy services.




OEI-06-06-00580            Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 4 – Marilyn Tavenner


As part of this monitoring, OIG recently completed evaluations of durable medical equipment
use 14 and enteral nutrient pricing. 15 Two ongoing evaluations include a medical record review of
enteral nutrition therapy claims and an overview of Part B services during non-Part A nursing
home stays.
Related Work
Over the last decade, OIG has performed several reviews of mental health services provided to
Medicare beneficiaries. 16 In a 2001 review, OIG focused on mental health services in nursing
homes and found that over one-third of the mental health services were not medically necessary,
were not documented, or were questionable. 17 In another review, OIG found that approximately
31 percent of outpatient Part B mental health services allowed in 1998 were paid in error resulting
in $185 million in inappropriate payments. 18
More recently, OIG issued a report in 2007 on payments for Part B mental health services provided
to beneficiaries in 2003. 19 The study included all settings, not just nursing homes. The report
found that 47 percent 20 of the mental health services allowed by Part B did not meet program
requirements, resulting in approximately $718 million in inappropriate payments. Of the sampled
services, OIG found that miscoded and undocumented services accounted for 26 percent and
19 percent, respectively, of identified errors. Further, medically unnecessary services and services
that violated the “incident to” rule 21 each accounted for 4 percent of identified errors. OIG
recommended that CMS revise, expand, and reissue its 2003 program memorandum on Part B
mental health services with an increased emphasis on proper documentation and coding and
emphasis on the requirements of the “incident to” rule. In its response, CMS agreed “that
additional focused provider education on mental health services may be warranted,” but noted that
significant information on medical documentation requirements and on the “incident to” rule was
available on its Web site. To date, CMS has not reissued the 2003 program memorandum.
However, in July 2008, CMS issued a special edition article to explain and consolidate Medicare’s
guidelines for payment of Part B mental health services. 22




14
     OIG, Part B Services During Non-Part A Nursing Home Stays: Durable Medical Equipment (OEI-06-07-00100), July 2009.
15
     OIG, Medicare Part B Services During Non-Part A Nursing Home Stays: Enteral Nutrient Pricing (OEI-06-07-00590), January 2010.
16
  OIG, Five-State Review of Partial Hospitalization Programs at Community Mental Health Centers (A-04-98-02145), October 1998; Review of
Outpatient Psychiatric Services at Psychiatric Hospitals for Calendar Year 1998 (A-01-99-00530), November 2000; and Medicare Part B
Payments for Mental Health Services (OEI-03-99-00130), May 2001.
17
     OIG, Medicare Payments for Psychiatric Services in Nursing Homes: A Follow-up (OEI-02-99-00140), January 2001.
18
     OIG, Medicare Part B Payments for Mental Health Services (OEI-03-99-00130), May 2001.
19
  OIG, Medicare Payments for 2003 Part B Mental Health Services: Medical Necessity, Documentation, and Coding (OEI-09-04-00220),
April 2007.
20
     This is the percentage of identified unduplicated errors.
21
     Section 1861(s)(2)(A) of the Social Security Act, 42 CFR § 410.26.
22
     CMS, Medicare Payments for Part B Mental Health Services, July 2008.




OEI-06-06-00580               Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 5 – Marilyn Tavenner


Payment Errors Identified and Reviewed by CMS
In 2002, CMS established the Comprehensive Error Rate Testing (CERT) program to review
approximately 100,000 randomly selected claims for payment accuracy. The CERT reviews result
in annually published reports by CMS, and identify the degree to which sampled claims complied
with Medicare coverage, coding, and billing regulations.
According to the 2006 CERT report, psychotherapy (HCPCS code 90806: 45–50 minute session of
individual insight-oriented psychotherapy furnished in an office or outpatient facility) was among
the top 20 services with documentation errors. 23 This psychotherapy service had a documentation
error rate of 5.1 percent and a projected improper payment amount of nearly $13 million. These
CERT results, however, are not comparable with our study’s results because of methodological
differences between the two reviews. For example, the CERT focuses on a random sample of all
claims submitted to Medicare’s fee-for-service program, whereas this review focused solely on a
random sample of Part B mental health claims submitted during non-Part A nursing home stays.
METHODOLOGY
Scope
For this study, we identified all Part B mental health claims associated with beneficiaries during
non-Part A nursing home stays in 2006. We conducted a medical necessity, documentation, and
coding review of mental health services provided to a random sample of nursing home residents
during these stays.
Identification of Mental Health Claims During Non-Part A Nursing Home Stays
We utilized several databases obtained from CMS to identify Part B payments allowed for mental
health services during non-Part A nursing home stays. These databases included the MDS, the
Online Survey Certification and Reporting system (OSCAR), the Enrollment Database (EDB), and
the NCH.
Minimum Data Set. The MDS is a core set of screening, clinical, and functional status elements,
including common definitions and coding categories, which forms the foundation of the
comprehensive assessment for all residents of long-term care facilities certified to participate in
Medicare or Medicaid. 24 It includes information about each resident’s health, physical functioning,
mental status, and general well-being, as well as nursing home admission and discharge dates.
Each nursing home reports these individual assessments electronically to the State upon admission
and updates them at least quarterly. 25 The States subsequently transmit MDS data to CMS. We
used the MDS (version 2.0) to identify all assessed nursing home residents in 2006 and their
Social Security numbers (SSN), related nursing homes, and nursing home stay dates. To determine
resident stay dates between January 1 and December 31, 2006, we extracted all nursing home


23
     CMS, Long Report – Improper Medicare Fee-For-Service Payments Report, November 2006.
24
     CMS, Resident Assessment Instrument Version 2.0 Manual, December 2002, ch. 1, p. 4.
25
     More assessments are required for stays paid under the Part A SNF benefit.




OEI-06-06-00580             Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 6 – Marilyn Tavenner


admission and discharge dates for each resident. We used assessment dates as proxies for missing
admission or discharge dates according to the following assumptions:
    Missing Admission Date. If the resident was in the nursing home on January 1, 2006
     (determined from subsequent assessments that the nursing homes conducted), we used the date
     of the first assessment conducted in 2005 as the admission date.
    Missing Discharge Date. We defined the date of the last assessment (received through
     March 2007) as the discharge date.
Online Survey Certification and Reporting system. The OSCAR database contains nursing home
facility demographic information, as well as survey results from nursing home certification and
complaint surveys. To obtain information about nursing homes (e.g., facility name; address;
number of beds; and SNF, NF, or dual SNF/NF certification), we linked the MDS facility
identification numbers with the facility numbers maintained in OSCAR.
Enrollment Database. The EDB includes beneficiary-level data (e.g., name, SSN, and Medicare
Health Insurance Claim Number (HICN)). Using this database, we matched SSNs contained in the
MDS file to SSNs in the EDB to identify Medicare beneficiaries and their associated HICNs. We
excluded beneficiaries having no matching SSN from further analysis.
National Claims History. The NCH is a data reporting system that includes both Part A and Part B
claims. We used the NCH to identify mental health claims allowed by Part B during non-Part A
nursing home stays. To identify mental health claims associated with Medicare beneficiaries with
nursing home stays (identified earlier), we first matched their HICNs to claims with mental health
service HCPCS. This match identified mental health claims allowed for Medicare beneficiaries
during all nursing home stays. To identify claims only during non-Part A stays, we then removed
all claims for Part A paid SNF stays 26 and inpatient hospital stays by matching the stay dates from
the MDS to the SNF and inpatient hospital claims in the NCH. The resulting dataset comprised all
mental health claims for which billing was allowed under Part B during non-Part A nursing home
stays in 2006.
Sample Design
The matches with the MDS, the OSCAR, the EDB, and the NCH resulted in a population of all
beneficiaries who had allowed Part B mental health claims during non-Part A nursing home stays
in 2006. A random sample of 400 claims out of 2,963,572 claims was reviewed for medical
necessity, sufficiency of documentation, and appropriateness of billing codes. Medical reviews
could not be done for 24 of the sampled claims for the following reasons: the facility identification
was unavailable, the facility moved and could not be reached by telephone or mail, or the facility
indicated that the beneficiary had never been in its facility. Therefore, the resulting sample
comprised 376 claims.

26
   OIG routinely conducts audits related to the issue of inappropriate Part B payments occurring during Part A stays. As such, we excluded all
Part A stays from our review.




OEI-06-06-00580           Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 7 – Marilyn Tavenner


Medical Review
To conduct a medical review of the sample of Part B mental health claims, we obtained medical
records and documentation from the providers of service and nursing homes where the
beneficiaries were residing in 2006. To allow for records relating to an entire episode of care, we
requested resident records for 6 months prior to the date of the sampled claim(s) to 1 month
following the date; this provided more context and detail for the medical reviewers. When a
provider did not respond to our initial request for documentation, we sent up to two followup
request letters and conducted followup telephone calls for more information. See Appendix B for a
list of medical documents requested from nursing homes and providers.
Identifying medically unnecessary, inadequately documented, and miscoded claims. We contracted
with licensed psychiatrists and professional coders to conduct a review of medical records for
beneficiaries associated with the sampled claims. The psychiatrists and coders reviewed
beneficiaries’ nursing home medical records and provider services records, and compared them
against coverage guidelines, definitions from the ICD-9, the DSM, and the CPT.
We calculated inappropriately paid amounts for claims with medically unnecessary services,
inadequately documented services, and miscoded services. 27 Some of the sampled claims had
more than one type of error. However, in calculating the total claims inappropriately paid, we
adjusted for overlapping errors by counting claims with multiple errors only once.
Standards
This study was conducted in accordance with the Quality Standards for Inspections approved by
the Council of Inspectors General on Integrity and Efficiency.
RESULTS
Thirty-nine Percent of Mental Health Claims Allowed by Medicare Part B During
Non-Part A Nursing Home Stays in 2006 Did Not Meet Program Requirements for Coverage,
Resulting in $74 Million in Inappropriate Payments
Medicare allowed approximately $211 million for Part B mental health claims during non-Part A
nursing home stays in 2006. Thirty-nine percent of these claims did not meet the program
requirements for coverage. As a result, Medicare allowed inappropriate payments of $74 million
for these mental health claims. For example, we found that 25 percent of claims were
undocumented or lacked adequate documentation to determine whether they were medically
necessary or whether they supported the services billed. Other errors involved claims that were
medically unnecessary or miscoded. Table 1 groups these sampled claims by type of error and
displays statistical projections of these errors to the population of Medicare Part B payments during
non-Part A nursing home stays in 2006. Related confidence intervals are provided in Appendix C.



27
  Miscoded services can be upcoded (billed for higher procedure codes than were actually performed), downcoded (billed for lower procedure
codes than were actually performed), or inaccurately coded (the correct service is completely different from the service billed).




OEI-06-06-00580           Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 8 – Marilyn Tavenner



Table 1. Medicare Part B Allowed Mental Health Claims That Did Not Meet Program
Requirements for Coverage During Non-Part A Nursing Home Stays in 2006
                                                                            Sample
                                                                                                                        Projected
                                                                       (376 Total Claims)
Type of Error
                                                                                        Inappropriately      Percentage of        Inappropriately
                                                               Number of Claims
                                                                                       Allowed Amount             Services       Allowed Amount
Medically Unnecessary                                                             37               $2,870                 9.8         $21,264,592

Undocumented/Inadequately Documented*                                             95               $7,158                25.3         $53,034,825

       To Determine Medical Necessity                                             46               $3,525                12.2         $26,114,330

       To Support Services Billed                                                 84               $6,313                22.3         $46,774,798

Miscoded                                                                          29                $534                  7.7          $3,953,850

(Total Overlapping Errors)                                                      (14)               ($587)                (3.7)        ($4,351,857)

                                            Total Errors                        147                $9,975                39.1         $73,901,410
* We adjusted for claims that had both of these documentation errors by counting them only once.
Source: OIG medical review of Part B mental health services provided to beneficiaries during non-Part A nursing home stays in 2006.



Medicare Part B allowed inappropriate payments of $21 million for medically unnecessary mental
health claims. Based on the psychiatrists’ medical review, we estimate that 10 percent (37 of
376 claims) of Part B mental health claims allowed during non-Part A nursing home stays in 2006
were medically unnecessary. For example, a medically unnecessary service involved a patient who
was given full sessions of psychotherapy twice a week. Given the patient’s memory problems and
dementia, the psychiatrist reviewer determined that the intensity and level of treatment were
unnecessary and inappropriate, especially after 3 years of treatment. 28
Medicare Part B allowed inappropriate payments of $53 million for mental health claims lacking
adequate documentation. We estimate that 25 percent (95 of 376 claims) of Part B mental health
claims allowed during non-Part A nursing home stays in 2006 were undocumented, lacked
adequate documentation to determine whether they were medically necessary, or lacked adequate
documentation to support the services billed. 29 Of the 376 sampled mental health claims, 9 percent
(33 of 376 claims) were completely undocumented, 3 percent (13 of 376 claims) lacked adequate
documentation to determine whether services were reasonable and medically necessary, 30 and
22 percent (84 of 376 claims) lacked adequate documentation to substantiate either the
appropriateness of the service billed or the date of service. These errors resulted in $18 million,
$8 million, and $47 million in inappropriate payments by Part B, respectively. Because we

28
   Payment contractor coverage guidelines (i.e., local coverage determinations) do not cover psychotherapy services when documentation
indicates that dementia has produced a severe enough cognitive defect to prevent establishment of a relationship with the therapist which allows
insight-oriented, behavior-modifying, or supportive therapy to be effective.
29
   Under section 1833(e) of the Social Security Act, “[n]o payment shall be made to any provider of services  unless there has been furnished
such information as may be necessary in order to determine the amounts due such provider  for the period with respect to which the amounts
are being paid or for any prior period.”
30
     For the majority of these claims, there were no records for the correct date of service.




OEI-06-06-00580               Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 9 – Marilyn Tavenner


adjusted for claims that had two or more of these documentation errors by counting them only
once, total inappropriate payment due to lack of documentation was $53 million.
Medicare Part B allowed inappropriate payments of $4 million for miscoded mental health claims.
We estimated that 8 percent of mental health claims allowed by Medicare Part B were miscoded,
resulting in $4 million in overpayments. Of the 376 sampled Part B mental health claims,
reviewers identified 29 claims that contained HCPCS billing codes that did not accurately reflect
the services provided. We found that 17 of these 29 miscoded claims were upcoded, meaning that
providers billed for higher procedure codes than were actually performed. For example, a provider
billed for a longer length of service than indicated by the medical records, resulting in an
overpayment. The provider billed for psychotherapy treatment that lasted 45 to 50 minutes (90818)
while medical reviewers determined that only a 20- to 30-minute (90816) session was provided.
The remaining 12 miscoded claims contained inaccurate services codes, in which the correct
service is completely different from the service billed. 31 For example, one provider billed for
psychotherapy treatment that lasted 20 to 30 minutes (90816), while medical reviewers determined
that the provider actually furnished medication management (90862). Accounting for sample
claims with both overpayments and underpayments, we estimate that Medicare Part B allowed net
overpayments of $4 million.
Psychotherapy Services Comprised the Vast Majority of Errors Related to Medical Necessity,
Documentation, and Miscoding
Consistent with the 2006 CERT report, which found that a psychotherapy service was among the
top 20 services with documentation errors, we found that psychotherapy services were associated
with the most number of errors related to medical necessity, documentation, and miscoding.
Individual insight-oriented psychotherapy services, specifically, accounted for the majority of
claims across all error types. For example, individual insight-oriented psychotherapy services
comprised 30 (of 37) claims and 24 (of 29) claims that had medical necessity errors and miscoding
errors, respectively. See Table 2 for the distribution of errors by types of mental health services.
Other services associated with errors include group psychotherapy, family psychotherapy, drug
management, psychiatric examination, and electroconvulsive therapy.




31
     Five of these twelve inaccurate services resulted in underpayments by Medicare Part B.




OEI-06-06-00580             Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 10 – Marilyn Tavenner


Table 2. Distribution of Error Types by Types of Mental Health Service*
                                                        Inadequate     Inadequately
                                                                                                                          Total Claims
                                         Medically Documentation To Documented To
Service Type (As Billed)                                                                                       Miscoded (Unduplicated
                                      Unnecessary Determine Medical Support Services
                                                                                                                                Count)
                                                          Necessity           Billed
 Individual Insight-Oriented                       30                         31                       49               24                100
 Psychotherapy
 Group Psychotherapy                                 4                         4                       12                1                  18
 Pharmacologic Management                            2                         9                       16                2                  20
 With No Psychotherapy
 Psychiatric Diagnostic                              1                         2                        6                1                      7
 Interview Examination
 Family Psychotherapy                                0                         0                        0                1                      1

 Electroconvulsive Therapy                           0                         0                        1                0                      1

     Total Number of Claims                        37                         46                       84               29                147
 *Sample size=376
 Source: OIG medical review of Part B mental health services provided to beneficiaries during non-Part A nursing home stays in 2006.



Although Diagnosis Codes Did Not Directly Affect Reimbursement, 71 Percent of Part B
Mental Health Claims Contained Inaccurate Diagnosis Codes or Lacked Adequate
Documentation To Support the Diagnosis Code
Based on the psychiatrists’ medical review, we found that 268 of the 376 (71 percent) 32 sampled
Part B mental health claims contained errors related to the ICD-9 codes listed on the claims. 33
These inaccurate ICD-9 codes did not have a direct impact on the reimbursement of the sampled
Part B mental health claims. 34 In most cases, the medical record supported the need for mental
health services. However, including an inaccurate or undocumented diagnosis is inconsistent with
the 2003 program memorandum and possibly could affect quality of care if it prevented a patient
from receiving the proper treatment to address his or her illness. Furthermore, other providers who
become involved in the patient’s care might mistakenly rely on an inaccurately coded diagnosis
when planning further treatments for the patient.
Of the 268 sampled Part B mental health claims that contained errors related to the ICD-9 codes,
174 contained inaccurate ICD-9 codes. For example, one patient had been diagnosed with senile
dementia with depressive features (ICD-9 code 290.21), but medical reviewers determined that the
patient should have been diagnosed with Alzheimer’s disease 35 (ICD-9 code 331.0) based on




32
     We adjusted for claims that had both of these diagnostic errors by counting them only once.
33
     Forty-five percent (120 of 268) of these claims also did not meet 1 or more of the program requirements previously discussed.
34
   CMS’s CERT contractors do not consider ICD-9 diagnostic codes when identifying errors in their reviews, as long as the condition indicated
in the medical record supports the medical necessity of the service.
35
   Alzheimer's disease is a neurodegenerative disorder of the central nervous system resulting in progressive loss of memory and intellectual
functions; begins in the middle or later years; characterized by brain lesions, such as neurofibrillary tangles and neuritic plaques.




OEI-06-06-00580              Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 11 – Marilyn Tavenner


medical record documentation. For the remaining 94 claims, reviewers could not make a
determination about the appropriateness of the diagnosis due to the lack of documentation. 36
CONCLUSION
Medicare Part B payments for mental health services during non-Part A nursing home stays
continue to be an area of concern. Our results are consistent with prior OIG reports that have
identified inappropriately paid mental health services. Thirty-nine percent of Part B mental
health claims allowed during non-Part A nursing home stays in 2006 were paid inappropriately
because of claims that were medically unnecessary, undocumented or inadequately documented,
or miscoded. These errors resulted in an estimated $74 million in inappropriate Part B payments.
To address issues related to Part B payments for mental health services, CMS promoted provider
awareness by posting guidance material online and issued a special edition article in 2008 to
explain and consolidate Medicare’s guidelines for payment of Part B mental health services. 37
Although the article may have improved provider compliance since issuance, we cannot
determine its impact because CMS issued the guidance material after the service dates for the
claims examined during this evaluation.
This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-06-06-00580 in all correspondence.




36
     Based on CMS’s program memorandum, ICD-9 codes reported on claim forms should be supported by documentation in the medical record.
37
     CMS, Medicare Payments for Part B Mental Health Services, July 2008.




OEI-06-06-00580            Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 12 – Marilyn Tavenner


APPENDIX A
 Table A-1: Healthcare Common Procedure Coding System Mental Health Codes
 Description                                                                             Current Procedural Terminology Code
 Psychiatric Diagnosis
   Evaluation of patient self-assessment for depression                                                                             S3005
   Interview                                                                                                                 90801–90802
   Evaluation of records or reports                                                                                                 90885
   Report preparation                                                                                                               90889
   Psychological testing                                                                                                     96101–96103
   Neuropsychological testing                                                                                                96118–96120
 Psychotherapy
   Individual
                  Insight-oriented                      Hospital or residential care                         90816–90819, 90821–90822
                                                               Office or outpatient                                       90804–90809
                        Interactive                     Hospital or residential care                         90823–90824, 90826–90829
                                                               Office or outpatient                                       90810–90815
   Family                                                                                                            90846–90847, 90849
   Group                                                                                                                     90853, 90857
   Pharmacologic management with minimal psychotherapy                                                                              90862
 Psychiatric Services Other Than Psychotherapy
   Pharmacologic management with no psychotherapy                                                                                   M0064
   Partial hospitalization services                                                                                                 S0201
   Intensive outpatient psychiatric services                                                                                        S9480
   Family stabilization services                                                                                                    S9482
   Crisis intervention mental health services                                                                                S9484–S9485
   Psychoanalysis                                                                                                                   90845
   Narcosynthesis analysis                                                                                                          90865
   Electroconvulsive therapy                                                                                                        90870
   Biofeedback training                                                                                                      90875–90876
   Hypnotherapy                                                                                                                     90880
   Environmental intervention                                                                                                       90882
   Consultation with family                                                                                                         90887
   Any unlisted mental health service and procedure                                                                                 90899
 Note: A medical evaluation and management service conducted on the same day as a psychotherapy service must not be reported separately
 when billing codes 90805, 90807, 90809, 90811, 90813, 90815, 90817, 90819, 90822, 90824, 90827, and 90829.
 Source: Centers for Medicare & Medicaid Services, and American Medical Association’s Physicians’ Current Procedural Terminology.




OEI-06-06-00580           Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 13 – Marilyn Tavenner


APPENDIX B
Table B-1: Medical Record Documents Requested From Nursing Homes and
Providers
The following documents for a period of 6 months prior to identified service to 1 month following service:

  Physician orders to include telephone and verbal orders

  Physician progress notes

  History and physical notes

  Medication records

  Nurse progress notes

  Other progress notes

  Discharge summaries for any inpatient stays during 2006

  Psychiatric, psychological, or other related notes/records/procedures/tests

  All MDS resident assessments conducted during 2005 through 2007

  Any mental health assessments conducted during 2005 through 2007

  Any other information concerning medical necessity

Source: Office of Inspector General evaluation of 376 sample Part B mental health claims for non-Part A nursing home stays during 2006.




OEI-06-06-00580            Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
Page 14 – Marilyn Tavenner


APPENDIX C

 Table C-1: Confidence Intervals for Mental Health Claims That Did Not Meet Program
 Requirements for Coverage During Non-Part A Nursing Home Stays in 2006*
                                                                         Estimated Inappropriately                              95-Percent
 Statistic                                                     N                 Allowed Amount/
                                                                             Percentage of Claims                       Confidence Interval

                                                                                              $21,264,592            $18,578,943–$23,950,242
 Medically Unnecessary                                        37
                                                                                                      9.8 %                          6.8–12.9 %

                                                                                              $53,034,825            $48,636,041–$57,433,609
 Undocumented/Inadequately Documented**                       95
                                                                                                    25.3 %                          20.9–29.7 %

                                                                                              $26,114,330            $23,273,569–$28,955,090
    To Determine Medical Necessity                            46
                                                                                                    12.2 %                           8.9–15.6 %

                                                                                              $46,774,798            $42,543,041–$51,006,555
    To Support Services Billed                                84
                                                                                                    22.3 %                           18.1–26.6%

                                                                                               $3,953,850               $1,722,334–$6,185,365
 Miscoded                                                     29
                                                                                                      7.7 %                           5.0–10.4%

                                                                                              ($4,351,857)            ($1,961,476–$6,742,239)
 (Total Overlapping Errors)                                  (14)
                                                                                                    (3.7 %)                          (1.8–5.6 %)

                                                                                              $73,901,410            $67,495,681–$80,307,138
       Total Errors                                          147
                                                                                                    39.1 %                          34.1–44.1 %

 *Sample size=376; N=number in sample

 ** We adjusted for claims that had two or more of these documentation errors by counting them only once.

 Source: Office of Inspector General analysis and projections of 376 sample Part B mental health claims and payments for non-Part A nursing home
 stays during 2006.




OEI-06-06-00580           Medicare Part B Services During Non-Part A Nursing Home Stays: Mental Health
